                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
April 3, 2012

Report Number: A-07-12-00375

Mr. Peter S. Moore
Vice President of Government Programs
GHI Medicare
25 Broadway
New York, NY 10004

Dear Mr. Moore:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Audit of Group Health Incorporated’s Local 153 Pension Plan
Unfunded Pension Costs for Plan Years 1987 Through 2007. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-12-00375
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Peter S. Moore


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





          AUDIT OF 

GROUP HEALTH INCORPORATED’S 

   LOCAL 153 PENSION PLAN 

 UNFUNDED PENSION COSTS FOR 

PLAN YEARS 1987 THROUGH 2007 




                       Daniel R. Levinson


                        Inspector General 


                           April 2012


                         A-07-12-00375 

                           Office of Inspector General
                                             http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices




    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.


                                  EXECUTIVE SUMMARY 


BACKGROUND 


Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1966. These contracts terminated on July 18, 2008, but GHI continues to
administer Medicare operations under a Coordination of Benefits contract with CMS.

During our audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan; the GHI Cash Balance Pension Plan; and the EmblemHealth Services Company,
LCC, Employees’ Retirement Plan. This report will address the unfunded pension costs for the
GHI Local 153 Pension Plan only.

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts specify segmentation requirements and require
separate identification of unfunded pension costs for the Medicare segment and the business
units comprising the rest of the company, which are aggregated and identified as the “Other”
segment.

OBJECTIVES

The objectives of our review were to:

   		 determine whether the pension costs for the GHI Local 153 Pension Plan for plan years
       1987 through 2007 were funded in accordance with the Federal Acquisition Regulation
       (FAR), Cost Accounting Standards (CAS), and Medicare contracts, and

   		 identify and properly account for any unallowable unfunded pension costs.

SUMMARY OF FINDINGS

GHI did not properly fund the pension costs allocable to the Medicare contracts in accordance
with the FAR and CAS for plan years 1995, 1999, and 2003. In addition, GHI did not identify or
properly account for unallowable unfunded pension costs in accordance with the CAS. As a
result of these errors, GHI understated the January 1, 2008, accumulated unallowable unfunded
pension costs by $2,680,363 ($86,031 for the Medicare segment plus $2,594,332 for the “Other”
segment).

RECOMMENDATIONS

We recommend that GHI:

   		 identify $2,680,363 of accumulated unallowable unfunded pension costs ($86,031 as an
       unallowable component of the Medicare segment pension costs and $2,594,332 as an
       unallowable component of the “Other” segment pension costs) as of January 1, 2008, and

                                               i
   		 properly identify, and update with interest, unallowable unfunded pension costs for
       subsequent plan years.

AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendations.

GHI’s comments are included in their entirety as the Appendix.




                                               ii
                                      INTRODUCTION 


BACKGROUND

Group Health Incorporated and Medicare

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). These contracts terminated on July 18, 2008, but GHI continues to administer
Medicare operations under a Coordination of Benefits contract with CMS. GHI also performs
Medicare work as a subcontractor on the Medicare Secondary Payer Recovery and Retiree Drug
Subsidy contracts.

During our audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan; the GHI Cash Balance Pension Plan; and the EmblemHealth Services Company,
LCC, Employees’ Retirement Plan. This report will address the unfunded pension costs for the
GHI Local 153 Pension Plan only.

In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These payments are allowable pension costs under the FAR and its predecessor, the
Federal Procurement Regulations (FPR). In 1980, the Medicare contracts and FPR incorporated
CAS 412 and 413.

Cost Accounting Standards

The CAS works to ensure stability between contract periods and requires that pension costs be
consistently measured and assigned to contract periods and allocated to cost objectives, including
Federal contracts. On March 30, 1995, the Office of Federal Procurement Policy, Cost
Accounting Standards Board, revised the CAS relating to the accounting for pension costs
applicable with the start of the first accounting period thereafter.

The revised CAS removed the regulatory conflict between the funding limits of the Employee
Retirement Income Security Act of 1974 (ERISA) and the period assignment provisions of the
CAS. The transition provisions of the new rule (48 CFR § 9904.412-64) allow the reassignment
of prior period pension costs, with interest, which were not funded because they lacked tax
deductibility.

The CAS revision does not remove the requirement to fund pension costs with contributions that
are not in conflict with ERISA. If a contractor could have funded pension costs and chose not to,
the costs and any accrued interest are unallowable in future periods. The unallowable portion of
pension costs must be updated, with interest, in accordance with the FAR and CAS.



                                                1

Federal Acquisition Regulation

The FAR addresses the allowability of pension costs and requires that pension costs assigned to
contract periods be substantiated by funding. The FAR (48 CFR § 31.205-6(j)(2)(i) and (iii)),1
states: “… pension costs … assigned to the current accounting period, but not funded during it,
are not allowable in subsequent years…. Increased pension costs are unallowable if the increase
is caused by a delay in funding beyond 30 days after each quarter of the year to which they are
assignable.”

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our review were to:

    		 determine whether pension costs for the Local 153 Pension Plan for plan years 1987
        through 2007 were funded in accordance with the FAR, CAS, and Medicare contracts,
        and

    		 identify and properly account for any unallowable unfunded pension costs.

Scope

Our review covered plan years 1987 through 2007. Achieving our objectives did not require that
we review GHI’s internal control structure. However, we reviewed internal controls relating to
the funding of pension costs to ensure that the pension costs had been funded in accordance with
the FAR, CAS, and Medicare contracts.

We performed fieldwork at GHI in New York, New York, during September 2008 and
July 2010.

Methodology

The CMS Office of the Actuary developed the methodology used for computing pension costs
based on the CAS. In performing this review, we used information provided by GHI’s actuarial
consulting firms, which included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We reviewed GHI’s accounting records, the
pension plan documents, annual actuarial valuation reports, and the Department of
Labor/Internal Revenue Service Forms 5500. Using these documents, the CMS Office of the
Actuary calculated the assignable CAS-based pension costs for each year of the period 1987
through 2007 for both the Medicare segment and the business units comprising the rest of the
company, which are aggregated and identified as the “Other” segment.



1
 During the period covered by our review, FAR 31.205-6 was amended with sections being renumbered and
reworded. Refer to FAR 31.205-6(j)(3)(i) and (iii) for relevant prior FAR citations.

                                                     2

Additionally, the CMS Office of the Actuary determined the extent to which GHI funded those
costs with contributions to the pension trust fund. We reviewed the methodology for the
calculations and updated GHI’s unfunded pension costs for plan years 1987 through 2007 for
both the Medicare segment and the “Other” segment.

We performed this review in conjunction with our audits of Medicare segmentation of the GHI
Local 153 Pension Plan (A-07-11-00358) and of GHI’s pension costs claimed for Medicare
reimbursement (A-07-12-00379, A-07-12-00380, and A-07-12-00381). We used the information
obtained during those audits in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                 FINDINGS AND RECOMMENDATIONS

GHI did not properly fund the pension costs allocable to the Medicare contracts in accordance
with the FAR and CAS for plan years 1995, 1999, and 2003. In addition, GHI did not identify or
properly account for unallowable unfunded pension costs in accordance with the CAS. As a
result of these errors, GHI understated the January 1, 2008, accumulated unallowable unfunded
pension costs by $2,680,363 ($86,031 for the Medicare segment plus $2,594,332 for the “Other”
segment).

UNALLOWABLE UNFUNDED PENSION COSTS

For Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR. The
Medicare contracts state: “The calculation of and accounting for pension costs charged to this
agreement/contract are governed by the Federal Acquisition Regulation and Cost Accounting
Standards 412 and 413.”

The revised CAS state that if a contractor could have funded pension costs and chose not to, the
costs and any accrued interest are unallowable in future periods. The unallowable portion of
pension costs must be updated, with interest, in accordance with the FAR and CAS.

For plan years 1995, 1999, and 2003 we identified $455,861, $110,646, and $937,533,
respectively, of pension costs2 that GHI could have funded with contributions as provided by
ERISA. However, GHI did not fund these pension costs. As of January 1, 2008, GHI had
$2,680,363 ($86,031 for the Medicare segment plus $2,594,332 for the “Other” segment) in
unfunded pension costs and imputed interest for plan years 1988 through 2007. These pension
costs are unallowable because they were not funded within specific time periods set by the FAR.
Imputed interest on the unfunded costs is also unallowable pursuant to the CAS.


2
    Total Company unfunded pension costs as of the end of the plan year.

                                                          3

RECOMMENDATIONS

We recommend that GHI:

   		 identify $2,680,363 of accumulated unallowable unfunded pension costs ($86,031 as an
       unallowable component of the Medicare segment pension costs and $2,594,332 as an
       unallowable component of the “Other” segment pension costs) as of January 1, 2008, and

   		 properly identify, and update with interest, unallowable unfunded pension costs for
       subsequent plan years.

AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our recommendations.

GHI’s comments are included in their entirety as the Appendix.




                                               4

APPENDIX 

                   APPENDIX: AUDITEE COMMENTS 





February 17,20 12

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services
Region VII
601 East 12'h Street, Room 0429
Kansas City, Missouri 64 106

        Re:    OIG R eport Number: A-07-12-00375
              Audit of Group Healtll l11corporated's Loca/153 Pe11sio11 Pla11 U11ju11ded Pensio11 Costs
              for Plan Years I987tllrougll2007.

Dear Mr. Cogley:

This response is in regard to the subject report. GHl and its actuaries have carefully reviewed the report
and supporting work papers. As recommended by the OIG, GHl agrees to:

    •   identify $2,680,363 of accumulated unallowable unfunded pension costs ($86,031 as an
        unallowable component of the Medicare segment pension costs and $2,594,332 as an unallowable
        component of the "Other" segment pension costs) as of January I, 2008, and

    •   properly identify, and update with interest, unallowable unfunded pension costs for subsequent plan
        years.


Please let me know if you have any questions regarding this letter.


Sincerely,

 (f~(~
PeterS. Moore
Vice President
                                  Group Healtlt, lncorporatetl
                              ZS Broadway, New York, NY 10004- 10 10
                                      www.ghimedicare.com
